              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
National Nuclear Security
Administration's Nuclear Explosive
Safety Study Program




DOE/IG-0581                                 January 2003
NATIONAL NUCLEAR SECURITY ADMINISTRATION'S NUCLEAR
EXPLOSIVE SAFETY STUDY PROGRAM

TABLE OF
CONTENTS



               Nuclear Explosive Safety Studies

               Details of Finding ........................................................................ 1

               Recommendations and Comments ........................................... 5


               Appendices

               Status of Nuclear Explosive Safety Studies ............................... 7

               Related Audit Reports and Internal Reviews .............................. 8

               Objective, Scope, and Methodology ......................................... 10

               Management Comments .......................................................... 12
NUCLEAR EXPLOSIVE SAFETY STUDIES

Background             To ensure the protection of the public, employees, facilities, and the
                       environment from nuclear explosive accidents, Department of Energy
                       (Department) policy specifies that a team of nuclear explosive safety
                       experts must independently review nuclear explosive operations1 every
                       five years. This review process is called a Nuclear Explosive Safety
                       (NES) study. To conduct the NES study, experts rely on a variety of
                       data including safety basis documentation. Various reports provide
                       comprehensive evaluations of the potential hazards inherent to nuclear
                       explosive operations, such as weapons being dropped, and processes
                       developed to mitigate or eliminate these hazards.

                       NES studies completed before 1997 were valid for five years, but could
                       be extended for an additional five years based on a limited revalidation
                       review. Revalidations entailed reviewing changes to the operation
                       since the initial NES study and were not as comprehensive as the initial
                       study. NES studies completed after January 1997 generally do not
                       expire, but are subject to review every four to five years to ensure that
                       nuclear safety standards continue to be met. NES reviews and
                       revalidations should be scheduled in such a manner to ensure that
                       mission-essential work can continue without interruption. Department
                       policy requires that if no approved NES study exists, the related nuclear
                       explosive operation for that specific weapon system cannot be initiated
                       unless senior National Nuclear Security Administration (NNSA)
                       management grants an extension.

Conduct of Scheduled   Our audit disclosed that for all nine active nuclear weapon types, NES
Safety Studies         studies and/or NES revalidations had not been conducted when required
                       and nuclear explosive operations had, at various times, been suspended.
                       Under the Department's current schedule, NES studies will be up to 6
                       years late, as illustrated in Appendix 1. Similar situations existed for
                       some inactive weapon types. If NES studies are conducted when
                       projected, some weapons will not have had a NES study conducted in
                       as many as 16 years. To NNSA's credit, NES studies have since been
                       completed for two of the active weapon types; however, the studies did
                       not cover all operations.

                       Several examples highlight the problems the Department has faced in
                       maintaining up-to-date safety studies.




                       1
                         A nuclear explosive operation is defined as an activity involving a nuclear explosive,
                       including activities in which the main charge high-explosive parts and pit are
                       co-located.

Page 1                                                                                 Detail of Findings
                        •   The B61-3/4 NES study, initially approved in June 1989,
                            expired in June 1994. Almost two years lapsed before the NES
                            study was revalidated, during which time operations were
                            suspended. Since its expiration in 1999, the study has been
                            extended twice, and a third request to extend the study until
                            2005 is pending. If granted, it will have been 16 years since the
                            initial safety review.

                        •   Similarly, operations for the W76 were suspended twice since
                            1989 – once for 24 months and then again for 18 months – after
                            the initial NES and revalidation expired. A new NES study was
                            completed in September 2000; however, it did not cover
                            reassembly operations.

                        •   The initial NES study for the W84, an inactive weapon system,
                            expired in April 1998. Management approved an extension in
                            April 1999, but operations were suspended during the
                            intervening 12 months.

                        •   The NES study for the B53, a retired weapon system, expired in
                            May 1999. While operations have been suspended since that
                            time, a number of weapons remain to be dismantled as part of
                            the Department's dismantlement program.

NES Study Schedule   NES studies had not been completed or had been delayed because
                     safety initiatives had not been fully implemented; safety basis
                     documents integral to the NES review process had not been completed;
                     necessary weapons response information from supporting laboratories
                     was delayed; and, the number of technical personnel familiar with
                     nuclear explosive systems was limited.

                                        Safety Initiative Implementation

                     In 1993, the Department initiated a process to reduce or eliminate
                     hazards in assembly, disassembly, and testing of nuclear explosives
                     through the reengineering of tooling (testers and equipment) and
                     procedures. Under this process, for example, devices for handling
                     nuclear explosives are to be developed. Such devices will eliminate the
                     majority of manual lifting operations thereby significantly reducing the
                     risk that a weapon will be accidentally dropped. However, the
                     improvement initiative, called Seamless Safety for the 21st Century (SS-
                     21), had only been fully implemented for the W76 disassembly and
                     inspection operation and partially implemented for some W78 and W88
                     processes. It had also been partially implemented for one inactive


Page 2                                                                     Detail of Findings
         weapon system. Department officials advised that until the SS-21
         initiative has been fully implemented and the processes to reduce or
         eliminate hazards have been put in place as required, the NES studies
         will not be completed.

         Department officials acknowledged that SS-21 implementation has
         been slow. They attributed the lengthy execution to the failure to
         formally assign primary responsibility and accountability to one key
         Headquarters management official. Officials also noted that many
         unexpected technical issues had been encountered with SS-21
         implementation. Resolving these issues caused considerable delays. At
         least four weapon types are in the beginning phases of SS-21
         implementation and the remaining are scheduled to start over the next
         several fiscal years. Department officials project that the safety process
         will be completely implemented by the end of Fiscal Year (FY) 2006.

                               Safety Basis Documentation

         NES studies also rely on a number of comprehensive input documents
         to assess the safety of operations. One such report, the Hazard Analysis
         Report (HAR) evaluates hazards to workers, the public, and the
         environment for a specific nuclear explosive operation. Similarly, the
         Safety Analysis Report (SAR) assesses potential hazards to a facility,
         such as earthquakes, floods, or fire. In a large number of cases, these
         safety documents either had not been completed or did not meet current
         requirements. For instance, the HARs for at least six weapon types did
         not meet current safety requirements because they did not contain an
         evaluation to identify changes to the process and/or tooling that could
         eliminate hazards. To meet current requirements, safety basis
         documents should, among other things, reflect tooling and operating
         procedures identified during the SS-21 process. Because SS-21 had not
         been fully implemented, these safety documents did not contain the
         required information needed for the NES reviews. In this regard,
         management told us that the Department is currently in the midst of a
         major upgrade of these documents.

                             Weapons Response Information

         Departmental laboratories that support Pantex operations did not always
         provide weapons response information to various accident scenarios in
         a timely manner. This information is needed to predict how weapons
         will respond, to identify and develop controls to mitigate or prevent
         nuclear accidents, and to prepare current safety basis documents. For
         example, a weapon response document needed for a transportation

Page 3                                                        Detail of Findings
                    safety analysis was provided to Pantex eight months behind schedule.
                    In another example, information requested for a staging facility safety
                    analysis was provided three months behind schedule. According to
                    Pantex's Fiscal Year 2001 appraisal, late responses from laboratories
                    significantly contributed to delays in meeting some safety deliverable
                    schedules. Further, a senior Federal manager commented that the
                    laboratories did not emphasize the importance of providing weapon
                    response information in a timely manner.

                                              Technical Personnel

                    Department officials advised that a shortage of Department and
                    contractor technical personnel familiar with the nuclear explosive
                    systems and skilled in safety practices had affected the implementation
                    of SS-21, the preparation of safety basis documentation, and the
                    completion of weapon response information. More specifically,
                    several management officials commented that it is very difficult to
                    retain employees who are familiar with preparing and evaluating safety
                    study documentation. To illustrate, Pantex lost three key weapon
                    managers to the national laboratories during the last year. Shortage of
                    technical staff was confirmed in the FY 2001 Report to Congress of the
                    Panel to Assess the Reliability, Safety, and Security of the United
                    States Nuclear Stockpile, which cited similar problems at other
                    Departmental sites. The Panel concluded that the ability of the
                    laboratories, plants, and the government to hire and retain top quality
                    personnel remains a serious challenge.

Importance of NES   Failure to perform scheduled NES studies contributed to delays in
Studies             mission activities, such as surveillance testing and dismantlement
                    operations. Surveillance testing data provides leading-edge knowledge
                    on nuclear weapons and is critical for the annual certification to the
                    President of the safety, reliability and performance of the nuclear
                    weapons stockpile. In addition, plant safety could also have been
                    impacted by delayed NES studies.

                    In order to meet requirements set in the Stockpile Stewardship
                    Program, NNSA relies on statistical samples to devise appropriate
                    surveillance testing schedules. However, we found that, in several
                    instances, surveillance schedules had been completed a year early in
                    anticipation of expiring NES studies. As a result, since the statistically
                    based testing cycle was not adhered to, the validity of the underlying
                    test data may have been compromised. In addition, about 12 weapons
                    (pertaining to three different weapon types) could not be disassembled,
                    inspected, or tested in FY 2000 as planned and at least 16 laboratory

Page 4                                                                   Detail of Findings
                  tests, scheduled over a four-year period for these weapon types, were
                  not conducted because safety studies had expired. Moreover,
                  dismantlement activities for some inactive weapons, such as the B-53,
                  could not be performed due to expired NES studies. NNSA asserted
                  that in spite of delayed or expired NES studies, the national laboratories
                  were provided sufficient information to allow the certification of all
                  active stockpile weapons. As we have noted in previous reports on
                  various aspects of surveillance testing and testing follow-up actions,
                  however, there are potential long-term consequences of not getting this
                  data when needed.

                  Consistent with our conclusions, the Department's Strategic Review of
                  the Surveillance Program 150-Day Report found that because of safety
                  basis issues, surveillance cycles of some weapon types had to be
                  accelerated (completed a year early) or delayed (doubling the following
                  year). In addition, certain component evaluations had slipped and
                  specific requirements for evaluations had been waived. The study
                  group concluded that the underlying data was compromised relative to
                  completing the cycle as scheduled and that it was difficult to provide a
                  clear and unambiguous assessment of the system.

                  Delayed or expired NES studies could also impact plant safety.
                  Department officials stated that periodic reviews of nuclear explosive
                  operations often provide a better understanding of the risks posed by
                  weapons work and aid in the identification of needed safety
                  improvements. Periodic reviews are needed to ensure that operations
                  continue to meet safety standards, which change over time. During the
                  course of the audit, officials informed us of several instances where
                  NES studies found safety deficiencies not previously identified. When
                  studies are delayed or not conducted, such safety concerns may go
                  undetected for many years.


RECOMMENDATIONS   To assist in completing all NES studies as expeditiously as possible, we
                  recommend the Deputy Administrator for Defense Programs:

                         1. Designate a Departmental official to be responsible and
                            accountable for implementation of SS-21;

                         2. Require rigorous performance measures and evaluations of
                            the national laboratories' and management and operating
                            contractors' performance in meeting safety requirements,
                            including preparing Safety and Hazard Analysis Reports and
                            the completion of all NES reviews;


Page 5                                              Recommendations and Comments
                          3. Ensure the national laboratories supporting Pantex's
                             authorization basis development provide timely and accurate
                             weapons response information; and,

                          4. Use available human resource tools and other means to
                             rebuild and retain a highly skilled scientific workforce for
                             nuclear explosive operations.


MANAGEMENT         NNSA's Associate Administrator for Management and Administration
COMMENTS           concurred with the report's findings and recommendations, and stated
                   that several actions have been initiated to expedite the completion of
                   Nuclear Explosive Safety studies. Specifically, the contractor at Pantex
                   has formalized its interactions with laboratories and instituted strict
                   performance accountability for the parties involved. In 2002, Federal
                   site managers initiated similar changes. In addition, management stated
                   that the NNSA Critical Skills Program (labs and Pantex, both Federal
                   and contractor) is rebuilding and retaining a highly skilled workforce
                   for the nuclear explosive weapons programs.

                   Management further commented that decisions to allow certain NES
                   studies to expire on several weapon systems were made so that limited
                   resources could be focused on implementing SS-21 for conventional
                   high explosive systems. The schedule and scope of the work to be
                   performed for all weapon systems are contained on the Integrated
                   Weapons Activity Plan. Management's verbatim comments are in
                   Appendix 4.


AUDITOR COMMENTS   We consider management's comments and actions to be responsive.




Page 6                                              Recommendations and Comments
Appendix 1

                                          STATUS OF NES STUDIES
                                         FOR ACTIVE WEAPON TYPES
                                             (As of September 2002)




2
  Based on NES occurring at the projected study date.
3
  The B61-3/4 – is considered one weapon system.
4
  The NES study completed in September 2000 was delayed a year and did not cover reassembly operations.
5
  The NES study completed in January 2002 was delayed two and a half years and did not cover reassembly operations.

Page 7                                                                Status of Nuclear Explosive Safety Studies
Appendix 2


                     RELATED AUDIT REPORTS AND INTERNAL REVIEWS



Office of Inspector General

   •   National Nuclear Security Administration's Test Readiness Program (DOE/IG-0566, September
       2002). The audit disclosed that Nevada's ability to conduct an underground nuclear test is at risk.
       Nevada and its support organization did not have adequate experienced staff, equipment, or facilities
       to carry out this requirement within the established timeframe. The ability to test was made even
       more difficult because the Department did not have a comprehensive plan or methodology to fill key
       and critical positions, validate aging assets, incorporate technology advances, and update Nuclear
       Explosive Safety studies.

   •   Management Challenges at the Department of Energy (DOE/IG-0538, December 2001). The audit
       found that the resolution of safety problems is an urgent need that ranks among the most serious
       challenges facing the Department.

   •   Stockpile Surveillance Testing (DOE/IG-0528, October 2001). The audit found that surveillance
       testing backlogs existed in flight, laboratory, and component testing and when tests are delayed or
       not completed, the Department lacks essential information on the operating characteristics and
       reliability of the weapon.

   •   Management of the Nuclear Weapons Production Infrastructure (DOE/IG-0484, September 2000).
       The audit found that the nuclear weapons production infrastructure has not been adequately
       maintained and current and future goals of the Stockpile Stewardship Plan are at risk.


National Nuclear Security Administration Defense Programs

   •   Strategic Review of the Surveillance Program 150-Day Report (January 1, 2001). Initiated by
       NNSA, this strategic review focused on defining the surveillance approach that would be most
       appropriate to assure the continued safety and reliability of the nation's nuclear stockpile. The team
       identified possible changes and improvements in the program to meet the needs of an aging
       stockpile with limitations on testing and an increasing need to preserve stockpile assets.

   •   Federal Managers' Financial Integrity Act Assessment (September 2001). This FY 2001 internal
       assessment found that the expiration of NES studies had placed the Department in the position of
       not being able to work on nuclear weapons as needed.




Page 8                                                      Related Audit Reports and Internal Reviews
Appendix 2 (Continued)


Other Reports


   •   Defense Nuclear Facilities Safety Board (February 1999). Among other issues the Board found that
       the overall program of work planning and safety planning that had been developed by the
       Department for nuclear explosive operations at the Pantex Plant in Texas, had been structured in
       such a complex manner that it was beginning to be undoable.

   •   FY 2001 Report to Congress of the Panel to Assess the Reliability, Safety, and Security of the United
       States Nuclear Stockpile (March 15, 2002). This Congressionally-established panel concluded that
       redirection of the Stockpile Stewardship program is needed to maintain confidence in our nuclear
       stockpile.

   •   FY 2000 Report to Congress of the Panel to Assess the Reliability, Safety, and Security of the United
       States Nuclear Stockpile (February 1, 2001). This Congressionally-established panel found a
       disturbing gap between the nation's declaratory policy that maintenance of a safe and reliable
       nuclear stockpile is a supreme national interest and the actions taken to support this policy.

   •   FY 1999 Report of the Panel to Assess the Reliability, Safety, and Security of the United States
       Nuclear Stockpile (November 8, 1999). The Congressionally-appointed panel reported that
       effective execution of both the Stockpile Stewardship Program and the Annual Certification Process
       offered the best hope for sustaining confidence in the nuclear stockpile, and its deterrent capabilities,
       into the future. The panel recommended strengthening and broadening the Annual Certification
       Process to provide assurance that potential problems are being sought out and reported.




Page 9                                                      Related Audit Reports and Internal Reviews
Appendix 3

OBJECTIVE     We conducted this audit to determine whether the Department was
              conducting scheduled safety reviews and evaluations of nuclear
              explosive operations.


SCOPE         The audit was performed from November 2001 to August 2002 at the
              National Nuclear Security Administration (NNSA), Germantown, MD;
              Department of Energy Headquarters, Washington, DC; and the Pantex
              Plant located near Amarillo, Texas. The scope of the audit was limited
              to determining whether the Department was conducting scheduled
              safety reviews and evaluations of nuclear explosive operations. Due to
              nuclear safety concerns, management should consider the matters
              discussed in this report when preparing its yearend assurance
              memorandum of internal controls.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Reviewed Federal and Departmental requirements related to the
                     conduct of nuclear explosive safety studies;

                 •   Reviewed prior external and internal reports regarding the
                     conduct of NES studies including the Federal Managers'
                     Financial Integrity Act;

                 •   Examined NES studies;

                 •   Determined whether NES studies were current and up-to-date;

                 •   Determined if prior safety studies disclosed prestart findings;

                 •   Determined the elapsed time between the prior and planned
                     NES study dates contained in the Integrated Weapons Activity
                     Plan;

                 •   Discussed NES studies with officials from Department
                     Headquarters, Pantex Plant, and the Defense Nuclear Facilities
                     Safety Board; and,

                 •   Reviewed performance measures established in accordance with
                     the Government Performance and Results Act.



Page 10                                       Objective, Scope, and Methodology
Appendix 3 (Continued)
                     The audit was performed in accordance with generally accepted
                     Government auditing standards for performance audits, and included
                     tests of internal controls and compliance with laws and regulations to
                     the extent necessary to satisfy the audit objective. Accordingly, we
                     assessed the significant internal controls related to the NES studies.
                     Because our review was limited, it would not necessarily have
                     identified all internal control deficiencies that may have existed.
                     Additionally, we did not rely on computer-processed data. In addition,
                     we reviewed the implementation of the Government Performance and
                     Results Act of 1993, as it related to NES studies. Performance
                     objectives had been established for integrated weapons activities plan
                     and safety management at Pantex.

                     We held an exit conference with NNSA officials on December 2, 2002.




Page 11                                             Objective, Scope, and Methodology
Appendix 4




Page 12      Management Comments
Appendix 4 (Continued)




Page 13                  Management Comments
Appendix 4 (Continued)




Page 14                  Management Comments
Appendix 4 (Continued)




Page 15                  Management Comments
Appendix 4 (Continued)




Page 16                  Management Comments
Appendix 4 (Continued)




Page 17                  Management Comments
                                                                              IG Report No.: DOE/IG-0581

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
